No. 19-285

IN THE

Ouprente Court of the Einitett Otateo
JERUD BUTLER,
Petitioner,
v.
BOARD OF COUNTY COMMISSIONERS FOR SAN MIGUEL
COUNTY, ET AL.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit

REPLY BRIEF IN SUPPORT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,994 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 20, 2019.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

